Inspections Report I-2000-01
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
Inspections Division
Bureau of Prisons'
Background Investigation
and Reinvestigation Program
Report Number
I-2000-01
December 1999
TABLE OF CONTENTS
Memorandum to the Director of Bureau of Prisons
Executive Digest
INTRODUCTION
Background
Program Operations and Responsibilities
RESULTS OF THE INSPECTION
Pre-Employment Suitability
Steps
Recommendations
Procedures For Resolving
Derogatory Issues Should Be Followed
Waiver Procedures
Financial Issues
Recommendation
Background Investigations
on Probationary Employees
Recommendation
Workload Management Needs
Improvement
Recommendations
Most Reinvestigations Have Been
Completed
SBIS Database Should Be
Corrected
Recommendation
Transferrable Background
Investigations Should Be Accepted
Recommendation
APPENDIX I - Scope and Methodology
APPENDIX II - The BOP
Personnel Security Process
APPENDIX III - Late Warden
Certifications by Region
APPENDIX IV - Timeliness of
Adjudications
APPENDIX V - Abbreviations
APPENDIX VI - BOPs Response to the Draft Report
APPENDIX VII - Office of
the Inspector Generals Analysis of Managements Response
* * * * *
MEMORANDUM FOR    KATHLEEN HAWK SAWYER
DIRECTOR
BUREAU
OF PRISONS
FROM:
ROBERT
L. ASHBAUGH
ACTING
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Bureau of Prisons Background
Investigation
and Reinvestigation Program,
Report
Number I-2000-01
Attached is the final report on our inspection of the Bureau of Prisons (BOP)
Background Investigation and Reinvestigation Program. The inspection, which was conducted
at your request, determined whether BOP is in compliance with relevant regulations and
whether BOP is managing the background investigation and reinvestigation program in an
effective manner.
We sent copies of the draft report to your office on October 18, 1999, and requested
written comments on the findings and recommendations. We have attached your November 18,
1999, response as Appendix VI.
On the basis of the written comments we received, we consider recommendation numbers
one through six, and eight, resolved and open. Appendix VII explains why the
recommendations were not closed and what corrective action is needed for closure.
Recommendation number seven is resolved and closed and no further action is required.
Please respond to the open recommendations within 90 days of the date of this memorandum.
Your response should provide the additional information or documentation requested. If
actions are not completed within 90 days, please provide projected completion dates.
Guidance on report follow-up and resolution can be found in Department of Justice Order
2900.10.
We hope our recommendations will be useful in your efforts to improve and enhance
BOPs background investigation and reinvestigation program. Please let me know if we
can provide you with any additional information. If you have any suggestions as to how we
might improve our review process, please let us know.
Attachment
cc:    Michael W. Garrett
Liaison
Bureau of Prisons
Vickie L. Sloan
Director
Departmental Audit Liaison Office
EXECUTIVE DIGEST
The Inspections Division, Office of the Inspector General, at the request of the
Director, Bureau of Prisons (BOP), reviewed the BOP background investigation and
reinvestigation program. BOP employees are subject to background investigations (BI)
before they can be placed in public trust positions and they must be periodically
reinvestigated (RI) during their career. This review determined whether BOP is in
compliance with relevant regulations and whether BOP is managing its BI and RI program in
an effective manner.
The BOP is charged with protecting society by confining federal prisoners. To do this
requires that BOP hire and retain employees who can be placed in positions of public
trust. Over 99 percent of the BOP's positions are designated as public trust positions
because of the duties that BOP employees perform. While this inspection did not focus
exclusively on one occupational category, correctional officers comprise the largest
portion of the BOP employee population -- approximately 42 percent. It is important that
they exhibit a high degree of integrity in the performance of their duties because they
have day-to-day contact with federal prisoners.
The BOP's Security and Background Investigation Section (SBIS) was created in 1992 to
manage the BOP personnel security program under a delegation of authority from the
Department of Justice (DOJ) Security Officer. BOP administers its personnel security
program through Personnel Security Units (PSU) located in each region. In the
institutions, personnel specialists are responsible for the pre-employment steps for BIs
and schedule employees' RIs. After the investigation is completed, the regional PSUs
identify and resolve any derogatory issues contained in the investigative report, create
personnel security files, and route the files to SBIS. SBIS makes the final evaluation --
called an adjudication -- on whether individuals are suitable to hold positions of public
trust in the BOP.
We reviewed a random sample of 247 employees out of 3,993 hired by BOP between October
1, 1995, and October 3, 1997, to determine whether BIs had been performed in accordance
with Department and BOP policies and procedures. We further assessed the BI and RI program
by examining the personnel security process that was conducted for 36 employees with
substantiated allegations of serious misconduct that occurred during their BOP employment.
We also reviewed the personnel security files for 11 employees arrested for bribery at one
institution to further assess the process.
Overall, we found that BOP is fulfilling its responsibility to conduct BIs and RIs for
its employees and that the personnel security program is detecting suitability issues.
However, we found problems with pre-employment and adjudication procedures that could
result in BOP hiring and retaining unsuitable employees. We also found that SBISs
database management needs improvement. Finally, we recommend that BOP reexamine its policy
of not accepting BIs performed by other federal agencies.
We found that institution personnel specialists allowed newly hired employees to enter
on duty before completing all of the required pre-employment suitability steps, such as
obtaining credit reports and conducting law enforcement inquiries. Wardens are responsible
for certifying that required pre-employment steps have been completed before an employee
begins employment. We found that 66, or 27 percent, of the 247 employees in our BI sample
were not certified prior to beginning employment.
The BOPs personnel security procedures allow Regional Directors to recommend
waivers to BOPs Guidelines of Acceptability for employees whose
backgrounds contain derogatory issues that exceed the guidelines. The guidelines represent
the minimum level of acceptable conduct for an employee seeking employment with BOP. The
Regional Director waiver process documents the reasons for the waiver. We found that
Regional Directors waived the guidelines for seven employees in our BI sample. The issues
waived involved financial issues and prior job misconduct. We also found that three
employees in our sample had issues that exceeded the guidelines but did not receive
waivers. The issues included recent drug use and suspension for unprofessional conduct in
a prior job. In one case, the SBIS detected the lack of the waiver but favorably
adjudicated the BI without requiring the institution or Regional Director to review the
background information to determine whether a waiver should be recommended. We recommended
that BOP require the SBIS to instruct the regional office and institution staff to comply
with BOPs Guidelines of Acceptability for recommending waivers.
Of the 244 employees with adjudicated BIs in our sample (3 of the 247 employees in our
sample had not been adjudicated), 66 had derogatory issues. Of the 66 employees with
derogatory issues, 39 had financial issues. We found that it was difficult to determine
whether institutions were resolving financial issues before employees entered on duty. Our
review of the security files for the 39 employees with financial issues revealed that for
17 employees these issues were discovered during the pre-employment process by personnel
specialists at the institutions. We found that the security files for 7 of the 17
employees did not contain documentation showing that the steps taken to determine that the
employees derogatory financial issues were within BOPs guidelines. The same
derogatory financial issues were revealed in OPM background investigation reports for
these 7 employees. We recommended that BOP require SBIS to instruct the regional office
and institution staff to document the process for resolution of financial issues.
The BOP was not adjudicating BIs in a timely manner. Sixty-one percent of the BIs in
our sample were not adjudicated within the 90-day adjudication standard. Untimely
adjudications can create a serious problem if the employee is serving in a one-year
probationary employment period. We found that almost 9 percent, or 22 employees, of the
247 in our sample had been employed for one year before their BIs were completed or
adjudicated. The procedures for removing unsuitable employees who have completed a
probationary period are generally more rigorous than the procedures for removing an
employee who has not completed the probationary period. Therefore, we recommended that
PSUs more closely monitor the BI status on probationary employees.
The BOP could improve the timeliness of adjudications if personnel security files
contained a complete record of actions taken to process the BI or RI and support
documentation for these actions. Without this information, SBIS has no assurance that
resolution and adjudication decisions by the PSUs and institutions were performed. The
SBIS staff indicated that during their final adjudication review they sometimes have to
contact the PSUs or institutions to locate missing documents and to determine what actions
were taken. We believe that SBIS could process final adjudications more timely if the
personnel security files are complete and there is a record or chronological list of
actions. We recommended that BOP implement procedures to ensure that adjudication
activities at each level of review are recorded in each security file.
Another way the BOP could improve its adjudication timeliness for BIs is by allowing
the PSUs to make the final adjudication for BIs that do not have any issues identified in
the investigative reports. The cases judged by the investigations as having no issues were
rarely found to be deficient by SBIS. Of the 52 employees in our sample that had no issues
to resolve, about one-half of them had adjudications that exceeded the 90-day standard. We
recommended that BOP consider delegating to PSUs the authority to grant final
adjudications on BIs and RIs that have no issues.
The BOP requires that RIs be conducted every five years for its employees. We compared
the Departments Security Entry Tracking System (SETS), SBIS and OPM databases and we
found that SBIS databases did not provide accurate information on RIs due. By comparing
the SETS and OPM databases on investigations conducted, we found that BOP had completed
all but 118 RIs that had been due in FY 1997 and prior. Because the SBIS database is not
accurate, we recommended that the BOP conduct file audits to increase the accuracy of its
database.
The BOP is conducting BIs on new employees who may not require another investigation.
An SBIS official told us that previous BIs conducted by other federal agencies or the
military services were not being accepted by BOP. We recommended that BOP review its
policies and consider accepting employees' previous BIs that conform to the criteria in
DOJ Order 2610.2A.
#####